Audit Report




OIG-12-041
SAFETY AND SOUNDNESS: Material Loss Review of First
National Bank of Georgia
February 14, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Causes of FNB Georgia’s Failure…………………………………………………… .....                                                        2
    Aggressive Growth and High-Risk CRE Concentration…………………………..                                                  2
    Ineffective Credit Risk Management Processes……………………………… .....                                                 4
    Investment Portfolio Losses……………………………… ...............................                                        5

  OCC’s Supervision of FNB Georgia…………………………………………….. .........                                                   6
    Supervision of FNB Georgia Was Appropriate ...........................................                        6
    Use of PCA and Enforcement Actions ....................................................                      11

  Conclusion ...............................................................................................     13

Appendices

  Appendix     1:      Objectives, Scope, and Methodology……………………………….                                           14
  Appendix     2:      Background………………………………………………………………                                                        17
  Appendix     3:      Management Response………………………………………………..                                                   19
  Appendix     4:      Major Contributors to This Report .........................................               20
  Appendix     5:      Report Distribution……………………………………………………..                                                 21

Abbreviations

  ALLL                 allowance for loan and lease losses
  CRE                  commercial real estate
  FDIC                 Federal Deposit Insurance Corporation
  FNB Georgia          First National Bank of Georgia
  IMCR                 Individual Minimum Capital Requirements
  MRA                  matters requiring attention
  OIG                  Office of Inspector General
  OCC                  Office of the Comptroller of the Currency
  OTTI                 other than temporary impairment
  PCA                  prompt corrective action
  ROE                  report of examination




                       Material Loss Review of First National Bank of Georgia (OIG-12-041)                     Page i
         This Page Intentionally Left Blank




Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page ii
                                                                                              Audit
OIG
The Department of the Treasury
                                                                                              Report
Office of Inspector General




                        February 14, 2012

                        John G. Walsh
                        Acting Comptroller of the Currency

                        This report presents the results of our material loss review of the
                        failure of First National Bank of Georgia (FNB Georgia), of Carrollton,
                        Georgia, and of the Office of the Comptroller of the Currency’s (OCC)
                        supervision of the institution. OCC closed FNB Georgia and appointed
                        the Federal Deposit Insurance Corporation (FDIC) as receiver on
                        January 29, 2010. Our review was mandated by section 38(k) of the
                        Federal Deposit Insurance Act because of the magnitude of FNB
                        Georgia’s estimated loss to the Deposit Insurance Fund 1 which at the
                        time of its failure was $240.2 million. 2 As of October 31, 2011,
                        FDIC’s estimated loss was $197.5 million. FDIC also estimated that
                        FNB Georgia’s failure resulted in a loss of $14 million to the
                        Transaction Account Guarantee Program.

                        Our objectives were to determine the causes of FNB Georgia’s failure;
                        assess OCC’s supervision of FNB Georgia, including implementation of
                        the prompt corrective action (PCA) provisions of section 38; and make
                        recommendations for preventing such a loss in the future. To
                        accomplish these objectives, we reviewed the supervisory files and
                        interviewed OCC and FDIC officials. We conducted our fieldwork from
                        April 2010 through January 2011. Appendix 1 contains a more
                        detailed description of our review objectives, scope, and methodology.


1
  Certain terms that are underlined when first used in this report, are defined in, Safety and Soundness:
Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is available on the Treasury
Office of Inspector General’s (OIG) website at http://www.treasury.gov/about/organizational-
structure/ig/Pages/by-date-2011.aspx.
2
  At the time of FNB Georgia’s failure, section 38(k) defined a loss as material if it exceeded the greater of
$25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines a
loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for calendar
years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a provision that the
threshold can be raised temporarily to $75 million if certain conditions are met).

                        Material Loss Review of First National Bank of Georgia (OIG-12-041)          Page 1
              Appendix 2 contains background information on FNB Georgia’s history
              and OCC’s assessment fees and examination hours.

              In brief, FNB Georgia failed because of its aggressive growth strategy
              and high-risk concentration in commercial real estate (CRE) lending,
              ineffective credit risk management processes, and losses from its
              investment portfolio. These factors, combined with the rapid decline in
              the real estate market, resulted in the deterioration of the bank’s asset
              quality, a substantial volume of problem loans, and significant losses.
              In turn, these losses diminished earnings and capital and, ultimately,
              led to FNB Georgia’s failure.

              OCC’s supervision of FNB Georgia did not prevent a material loss to
              the Deposit Insurance Fund. However, we concluded that OCC’s
              supervision of FNB Georgia was appropriate. OCC addressed the
              concentration in CREs and identified credit risk management issues in
              a timely manner. In addition, as the bank’s capital levels deteriorated,
              OCC appropriately imposed PCA restrictions on the bank and took
              enforcement action.

              We are not making any recommendations to OCC as a result of our
              material loss review of FNB Georgia. We provided a draft of this report
              to OCC for its review. In a written response, which is included as
              appendix 3, OCC stated that it agreed with our conclusions as to the
              causes of FNB Georgia and OCC’s supervision over the bank.

Causes of FNB Georgia’s Failure
              Aggressive Growth and High-Risk CRE Concentration

              FNB Georgia’s board and management executed a lending strategy
              that resulted in a high-risk concentration in CRE lending, particularly in
              land, construction, residential real estate, and acquisition and
              development loans. From December 2004 to December 2008, total
              CRE lending steadily increased 82 percent, from $223 million to $406
              million.

              OCC guidance to examiners specifies the following levels at which an
              institution’s CRE loans represent a concentration risk requiring further
              analysis:



              Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page 2
                     •             total reported loans for construction, land development, and other
                                   land represent 100 percent or more of the institution’s total risk-
                                   based capital; or
                     •             total CRE loans represent 300 percent or more of the institution’s
                                   total risk-based capital, and the outstanding balance of the
                                   institution’s CRE loan portfolio has increased by 50 percent or
                                   more during the prior 36 months. 3

                     As shown in Figure 1, FNB Georgia’s CRE loans as percentages of
                     total risk-based capital significantly exceeded these supervisory
                     benchmarks.

                     Figure 1. FNB Georgia’s CRE Loan Exposure as a Percentage of Total
                     Risk-Based Capital

                                                            800

                                                            700
                         Percentage of risk-based capital




                                                            600

                                                            500

                                                            400

                                                            300

                                                            200

                                                            100

                                                             0
                                                              2004       2005         2006          2007         2008      5/31/2009
                                                                     CRE actual                            CRE benchmark

                                                                     Residential construction and          Residential construction and
                                                                     development loans actual              development loans benchmark


                     Source: OCC’s analysis of 2004 – 2008 call reports and OCC 2009 report of examination
                     (ROE)




3
 OCC Bulletin 2006-46, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (Dec. 6, 2006).

                     Material Loss Review of First National Bank of Georgia (OIG-12-041)                                     Page 3
OCC examiners noted in the 2009 ROE that a vast majority of the
bank’s problem loans were in its CRE portfolio and that the risk to
earnings and capital from the bank’s CRE lending remained high and
was increasing. The bank’s CRE concentration as a percentage of total
risk-based capital further increased as the bank’s capital began to
significantly erode and asset quality declined. This condition was
exacerbated by the decline in the local real estate market in 2007. As
the real estate market continued to decline in 2009, FNB Georgia’s
level of problem loans dramatically increased. FNB Georgia’s
deteriorating asset quality led to net losses of $53.6 million for the
first three quarters of 2009. In turn, these loan losses significantly
reduced earnings and capital and, ultimately, led to FNB Georgia’s
failure.

Ineffective Credit Risk Management Processes

Although OCC guidance does not specify limits on banks’ CRE lending,
it does describe risk management practices an institution is expected
to have in place in order to carryout CRE lending in a safe and sound
manner. According to the guidance, institutions should address the
following key elements in establishing a risk management framework
that effectively identifies, monitors, and controls CRE concentration
risk:

•   board and management oversight
•   portfolio management
•   management information systems
•   market analysis
•   credit underwriting standards
•   portfolio stress testing and sensitivity analysis
•   credit risk review function

FNB Georgia did not effectively address all these key elements. For
example, OCC identified numerous unsafe and unsound practices
related to credit risk management processes, principally in the areas of
the bank’s board and management oversight, concentration risk
management, stress testing, problem asset management, and
allowance for loan and lease losses (ALLL) adequacy and
methodology.

In the 2009 ROE, OCC examiners noted that internal loan review and
problem asset management were critically deficient. Examiners

Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page 4
                       identified numerous underwriting and monitoring issues. For example,
                       the examiners noted the bank management renewed or restructured
                       loans without obtaining an appraisal or preparing an evaluation of the
                       collateral as outlined in OCC guidance.

                       In addition, FNB Georgia’s board and management did not adequately
                       control the risks related to its CRE loan concentration. FNB Georgia’s
                       board and management did not implement adequate loan
                       diversification practices and did not realistically estimate the risk
                       related to loan concentrations. Also, FNB Georgia’s management did
                       not conduct adequate stress testing or a comprehensive downside risk
                       analysis of CRE concentrations and the potential impact a sudden or
                       sharp real estate market downturn could have on both earnings and
                       capital, which further exposed the bank to a high level of credit risk.

                       Furthermore, examiners noted that the loan losses in the second
                       quarter of 2009 exceeded the balance and completely depleted the
                       reserve. In the 2009 ROE, OCC examiners stated that this was a clear
                       indication that the ALLL balance did not reflect credit risk inherent in
                       the loan portfolio. The examiners found that $22.1 million was needed
                       to return the ALLL to a minimally adequate level. The examiners also
                       concluded that management had engaged in additional unsafe or
                       unsound practices in connection with the ALLL methodology by,
                       among other things: (1) failing to perform quarterly required analyses
                       for impaired, collateral dependent loans; (2) failing to adequately
                       stratify risk in the portfolio; (3) reaching inaccurate conclusions on
                       some qualitative/environmental factors, such as adequacy of problem
                       loan identification, timely loss recognition, quality underwriting,
                       collateral exceptions, and policy exceptions; and (4) using arbitrary
                       values to determine the high and low end of ranges.

                       Investment Portfolio Losses

                       As of March 31, 2009, FNB Georgia’s investment portfolio totaled
                       $101 million and represented 11 percent of total assets. 4 As of that
                       date, examiners noted in the 2009 ROE that the credit risk related to
                       the investment portfolio was significant and the bank reported an
                       unrealized loss of $1.4 million, or 1.4 percent, of the investment

4
  The investment portfolio was comprised of municipal securities (53 percent); mortgage-backed securities
(20 percent); agency collateralized mortgage obligations (16 percent); and other debt and equity securities
(11 percent).


                       Material Loss Review of First National Bank of Georgia (OIG-12-041)        Page 5
             portfolio. Subsequently, for the second quarter of 2009, the bank
             recorded other than temporary impairments (OTTI) of $6.5 million.
             These losses contributed to the reduction of the bank’s earnings and
             erosion of capital levels.

             In addition, examiners noted in the 2009 ROE that FNB Georgia’s
             management pursued investment opportunities without (1) adequately
             assessing investment risk; (2) implementing adequate investment
             policies and procedures; and (3) properly accounting for investments
             in accordance with generally accepted accounting principles (GAAP)
             and call report instructions. In this regard, the examiners stated that
             procedures for measuring fair market value and assessing OTTI for
             investment securities were deficient; and that FNB Georgia’s
             accounting for investment securities did not conform to GAAP,
             resulting in misstatements in regulatory reports and public financial
             statements. OCC examiners further found that management did not
             account for structured investment products, equity securities, and
             certain debt securities in accordance with call report instructions,
             resulting in call report errors and an overstatement of regulatory
             capital ratios for an undetermined period of time.

             In a matter requiring attention (MRA), the examiners informed the
             board and management that the bank should assess the fair market
             value of all investment securities on a quarterly basis for call report
             purposes. The examiners also informed the bank that it should
             establish policies and practices that assess OTTI for the investment
             portfolio on an individual security basis, and that this process should
             incorporate the relevant accounting guidance for each type of security.
             It should be noted that according to the 2009 ROE, that FNB
             Georgia’s Chief Executive Officer and Chief Financial Officer
             committed to ensure accurate call report filings going forward. They
             also committed to ensuring implementation of robust processes to
             estimate fair market value and assess OTTI. However, the bank was
             closed before these actions were taken.


OCC’s Supervision of FNB Georgia
             Supervision of FNB Georgia Was Appropriate

             OCC’s supervision of FNB Georgia did not prevent a material loss to
             the Deposit Insurance Fund. However, based on our review, we


             Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page 6
                      concluded that OCC’s supervision of FNB Georgia was appropriate.
                      OCC addressed the concentration in CREs and identified credit risk
                      management issues in a timely manner. In addition, as the bank’s
                      capital levels deteriorated, OCC appropriately imposed PCA restrictions
                      on the bank and took enforcement action.

                      The following table summarizes OCC’s examinations of FNB Georgia
                      and related enforcement actions from 2004 to 2010. 5 Generally,
                      MRAs represent the most significant items reported in ROEs requiring
                      corrective action.


              Table 1. Summary of OCC’s FNB Georgia Examinations and Enforcement Actions

                                                                   Examination Results
                                                          Number
Date started/completed/     Assets        CAMELS          of          Number of             Enforcement
Type of exam                (millions)    rating          MRAs        recommendations       actions
7/23/2004
9/6/2004
                               $439        1/121121           1                6            None
Full-scope
Examination
6/23/2005
9/1/2005
                               $520        2/222221           2                7            None
Full-scope
Examination
7/6/2006
9/18/2006
                               $573        2/222221           0                4            None
Full-scope
Examination
9/4/2007
1/8/2008
                               $879        2/232221           2                2            None
Full-scope
Examination
                                                                                            Notice of Troubled
4/28/2008                                                                                   Condition issued
10/30/2008                                                                                  9/8/2008
Full-scope                                                                                  Formal agreement
                               $889        4/443532           4                0
examination with focus on                                                                   issued 11/12/2008
CRE and asset quality                                                                       Individual Minimum
                                                                                            Capital Ratios
                                                                                            issued 12/18/2008




5
 OCC followed its internal requirements with respect to the timeliness of annual examinations of FNB
Georgia and quarterly monitoring of the bank.

                      Material Loss Review of First National Bank of Georgia (OIG-12-041)           Page 7
             Table 1. Summary of OCC’s FNB Georgia Examinations and Enforcement Actions

                                                                   Examination Results
                                                          Number
Date started/completed/      Assets       CAMELS          of          Number of             Enforcement
Type of exam                 (millions)   rating          MRAs        recommendations       actions
1/5/2009
6/4/2009
Targeted-scope                                                                              Notice of CAMELS
examination with focus on      $841        5/554532          N/A              N/A           downgrade issued
compliance with formal                                                                      6/4/2009
agreement and review of
capital plan
6/22/2009
1/6/2010                                                                                    PCA directive
                               $841        5/555544           6                0
Full-scope                                                                                  issued 12/22/2009
Examination
Source: OCC ROEs and FDIC call reports.

                      As discussed above, FNB Georgia’s board and management
                      implemented a lending strategy with high-risk concentration in CRE
                      lending. OCC identified numerous unsafe and unsound practices
                      related to the bank’s credit risk management processes. The following
                      is a summary of key actions taken by OCC relating to these areas.

                      •     In the 2004 ROE, examiners noted: (1) a moderate level of credit
                            risk; (2) weaknesses in the banks’ management information
                            systems, and (3) unresolved credit administration issues and new
                            issues identified by internal loan review. An MRA relating to loan
                            review findings was issued.

                      •     In the 2005 ROE, examiners informed the board that it needed to
                            be mindful of bank policy limits relating to CRE concentration that
                            had been exceeded. In addition, examiners noted that credit
                            administration needed improvement. During their review, examiners
                            identified issues such as inadequate expertise to oversee the loan
                            administration function, an inadequate loan review function,
                            inadequate management information systems, and problem loan
                            management that warranted additional improvement. An MRA
                            addressing these issues was issued.

                      •     In the 2006 ROE, examiners noted that the board had established
                            reasonable policy limits for concentrations as a percentage of total


                      Material Loss Review of First National Bank of Georgia (OIG-12-041)           Page 8
                          loans, but recommended the board establish policy limits for
                          concentrations as a percentage of capital.

                      •   In the 2007 ROE, examiners found that the bank’s classified asset
                          levels as of September 30, 2007, were high at 48 percent of
                          capital, and were expected to increase as market weaknesses
                          continued. The examiners downgraded the asset quality CAMELS
                          component rating to a 3, and cautioned the bank to strengthen the
                          bank’s credit risk management practices and continue to ensure
                          that adequate concentration limits were maintained. Furthermore,
                          OCC recommended that due to its merger with another bank, the
                          board revisit limits established for concentrations. 6 The examiners
                          reemphasized to the bank the need to establish policy limits for
                          concentrations as a percentage of capital. An MRA addressing the
                          excessive increase in problem loans was issued.

                      •   In the 2008 ROE, examiners noted that the bank’s classified asset
                          levels increased to 184 percent of capital as of March 31, 2008.
                          As a result, examiners found the bank to be in unsatisfactory
                          condition due to acute deterioration in asset quality, and
                          downgraded the asset quality CAMELS component rating to a 4.
                          Examiners found that the primary cause of the bank’s condition
                          was a direct result of the board’s failure to adequately control the
                          risk related to loan concentrations by not (1) implementing
                          adequate loan diversification practices and (2) realistically
                          estimating the risk related to loan concentrations.

                          Examiners also noted that concentration risk management systems
                          were deficient since the board and management did not effectively
                          plan, assess, and manage portfolio concentrations. Because of this
                          deficiency, examiners concluded that the bank was not in
                          compliance with the CRE concentration risk management guidance
                          in OCC Bulletin 2006-46. 7

                          The examiners issued an MRA directing the bank to reduce credit
                          risk by: (1) reducing special mention and classified loan levels;
                          (2) reducing past due and non-performing assets; (3) reducing loan
                          concentrations, especially in the riskier loan sectors; (4) remaining

6
  On July 1, 2007, the bank, operating under the name of West Georgia National Bank, merged with the
First National Bank of Georgia, Buchanan, Georgia, and became FNB Georgia.
7
  OCC Bulletin 2006-46, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (Dec. 6, 2006)

                      Material Loss Review of First National Bank of Georgia (OIG-12-041)     Page 9
                            proactive in identifying troubled credit relationships; and
                            (5) continuing to ensure that the ALLL remained at an adequate
                            level.

                            In addition, on November 12, 2008, OCC and the board entered
                            into a formal agreement to address unsafe and unsound banking
                            practices related to levels of concentration and classified assets in
                            the bank’s CRE portfolio. The formal agreement required the board
                            to, among other things: (1) implement a written action plan
                            detailing the board’s assessment of actions to take to improve the
                            bank’s condition; (2) implement a written diversification program to
                            address concentration of credit-risk issues; and (3) establish a loan
                            workout division for the purpose of restoring and reclaiming
                            classified assets, including CRE.

                          • On December 18, 2008, OCC notified the board that it established
                            an individual minimum capital ratio (IMCR) because of the increased
                            risk from the bank’s excessive CRE concentrations. Specifically,
                            the IMCR required the bank to achieve by March 31, 2009, and
                            maintain, a Tier 1 leverage ratio of at least 9 percent, and a total
                            risk based capital ratio of at least 13 percent to be deemed well
                            capitalized. 8 OCC subsequently extended the date to meet the
                            IMCR to April 17, 2009.

                      •     In a letter dated June 4, 2009, examiners noted concerns with the
                            bank’s compliance with the formal agreement and the
                            establishment of the IMCR. Examiners found that the bank had
                            failed to raise additional capital to meet the minimum capital ratios.
                            Regarding concentrations of credit, examiners noted that an asset
                            diversification program was implemented and approved by the
                            board on December 19, 2008. That program was designed to
                            lower the bank’s aggregate limits of 100 percent for construction,
                            land development, and land loans and 300 percent for total CRE
                            loans. OCC had no supervisory objection to the program except
                            that: (1) the calculation of concentration percentages should have
                            been based on commitment amounts, (2) an overall timeline with
                            target dates should have been established, and (3) interim period
                            target benchmark percentages should have been established so
                            that progress could be monitored.


8
 The PCA minimum capital ratios to be deemed well capitalized were for Tier 1 leverage ratio, 5 percent
and total risk-based capital, 10 percent.

                      Material Loss Review of First National Bank of Georgia (OIG-12-041)      Page 10
•   In the 2009 ROE, completed on January 6, 2010, examiners
    continued to identify and report on a number of unsafe or unsound
    practices such as problem loan identification, problem asset
    management, concentration risk management, and the failure to
    comply with the formal agreement discussed above. The examiners
    concluded that the level of problem loans was a direct result of an
    inadequate portfolio diversification strategy that resulted in a high
    concentration of CRE loans. The examiners also found that the
    bank was in noncompliance with all asset-related articles in the
    formal agreement.

    In a repeat MRA, the examiners stated that credit risk was very
    high, and that a continued downturn in the economy and local real
    estate market had continued to result in increasing problem loans,
    non-performing assets, and high loan losses.

•   On January 29, 2010, less than 1 month after completion of the
    2009 examination, OCC exercised its authority to close the bank
    and appointed FDIC as receiver.

Use of PCA and Enforcement Actions

The purpose of PCA is to resolve problems of insured depository
institutions with the least possible long-term loss to the Deposit
Insurance Fund. PCA requires federal banking agencies to take certain
actions when an institution’s capital drops to certain levels. PCA also
gives regulators flexibility to supervise institutions based on criteria
other than capital levels to help reduce deposit insurance losses
caused by unsafe and unsound practices.

As FNB Georgia’s capital levels deteriorated, OCC appropriately
imposed PCA restrictions on the bank and took enforcement action.
OCC took the following key actions relating to capital:

•   On September 8, 2008, OCC designated FNB Georgia to be in
    troubled condition because of deficiencies identified in the
    examination that commenced on March 31, 2008.

•   On November 12, 2008, OCC and FNB Georgia entered into a
    formal agreement in response to unsafe and unsound banking
    practices relating to concentration levels and classified assets,
    including construction, and acquisition and development loans.

Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page 11
                       •   As discussed above, in December 2008 OCC notified the board
                           that it established IMCRs requiring the bank to achieve, and
                           thereafter maintain, a Tier 1 leverage ratio of at least 9 percent,
                           and a total risk-based capital ratio of at least 13 percent to be
                           deemed well capitalized. Additionally, OCC required the bank to
                           submit an acceptable capital plan to achieve the IMCRs by
                           January 15, 2009.

                       •   On March 5, 2009, OCC notified the board that it disapproved of
                           the capital plan submitted by the bank on January 15, 2009,
                           because it did not contain all of the required information.

                       •   On August 4, 2009, OCC notified the board that the bank was
                           significantly undercapitalized based on the total risk-based capital
                           ratio of 4.27 percent reported on its June 30, 2009, call report.
                           OCC also required the bank to resubmit a capital restoration plan
                           by September 14, 2009. 9

                       •   On September 14, 2009, the bank submitted a capital restoration
                           plan.

                       •   On November 10, 2009, OCC notified the board that the bank was
                           critically undercapitalized based on the tangible equity ratio of 1.15
                           percent reported on its September 30, 2009 call report.

                       •   On November 19, 2009, OCC notified the board that it did not
                           accept the capital restoration plan submitted on September 14,
                           2009, because it was based on future events that had not
                           occurred and were not within the bank’s control.

                       •   On December 22, 2009, OCC issued a PCA directive requiring FNB
                           Georgia to achieve, and thereafter maintain a total risk-based
                           capital ratio of 13 percent and leverage ratio of 9 percent, pursuant



9
 Based on the bank’s total risk-based capital ratio of 9.5 percent reported on its call report as of June 30,
2008, the bank had fallen to adequately capitalized. However, after raising $12 million in capital, it became
and remained well-capitalized as of September 30, 2008, and through the first quarter of 2009. By
June 30, 2009, only 3 months later, the bank went from being well-capitalized to significantly
undercapitalized, as a result of a $42 million loss suffered in the quarter. This loss is mainly due to a $26
million charge in its ALLL, a $6 million loss on its other real estate owned assets, a $4 million tax charge,
and nearly $4 million in losses on sales of held to maturity securities from its investment portfolio. This$ 42
million loss reduced its capital by 63 percent.

                       Material Loss Review of First National Bank of Georgia (OIG-12-041)         Page 12
                           to PCA and capital program requirements of the IMCR dated
                           December 18, 2008. The PCA directive was effective immediately.

                       •   On January 29, 2010, OCC closed the bank and appointed FDIC as
                           receiver. The action, in this case 80 days, was within the PCA
                           required timeframe after FNB Georgia was first deemed critically
                           undercapitalized. 10

Conclusion
                       We are not making any new recommendations to OCC as a result of
                       our material loss review of the FNB Georgia failure. It is important to
                       note that we have reported in prior MLRs that high concentrations in
                       CRE loans were a significant factor in the failure of a number of other
                       banks. For example, in our May 2010 MLR report on Union Bank, we
                       recommended that OCC work with its regulatory partners to determine
                       whether to propose legislation and/or change regulatory guidance to
                       establish limits or other controls for concentrations that pose an
                       unacceptable safety and soundness risk and determine an appropriate
                       range of examiner responses to high-risk concentrations. 11 The failure
                       of FNB Georgia was another case in which a bank failed primarily
                       because it had a high concentration in CRE loans.

                                                      * * * * *

                       We appreciate the courtesies and cooperation provided to our staff
                       during the audit. If you wish to discuss the report, you may contact
                       me at (202) 927-5776. Major contributors to this report are listed in
                       appendix 4.


                       /s/
                       Susan Barron
                       Audit Director




10
   Except in unusual circumstances, which did not exist in this case, OCC is required by
12 U.S.C. § 1831o(h)(3)(A) to appoint a receiver for a national bank not later than 90 days after the bank
becomes critically undercapitalized for purposes of PCA.
11
   Safety and Soundness: Material Loss Review of Union Bank, National Association, OIG-CA-10-009
(May 11, 2010).

                       Material Loss Review of First National Bank of Georgia (OIG-12-041)       Page 13
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of First National Bank of
                        Georgia (FNB Georgia), of Carrollton, Georgia, in response to our
                        mandate under section 38(k) of the Federal Deposit Insurance
                        Act. 12 This section provides that if the Deposit Insurance Fund
                        incurs a material loss with respect to an insured depository
                        institution, the inspector general for the appropriate federal banking
                        agency is to prepare a report to the agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action (PCA) provisions
                             of section 38; and
                        •    makes recommendations for preventing any such loss in the
                             future.

                        At the time of FNB Georgia’s failure, section 38(k) defined a loss as
                        material if it exceeds the greater of $25 million or 2 percent of the
                        institution’s total assets. The law also requires the inspector
                        general to complete the report within 6 months after it becomes
                        apparent that a material loss has been incurred.

                        We initiated a material loss review of FNB Georgia based on the
                        loss estimate to the Deposit Insurance Fund by the Federal Deposit
                        Insurance Corporation (FDIC), which was $240.2 million when the
                        Office of the Comptroller of the Currency (OCC) closed the bank on
                        January 29, 2010.

                        Our objectives were to determine the causes FNB Georgia’s failure;
                        assess OCC’s supervision of FNB Georgia, including implementation
                        of the PCA provisions of section 38; and make recommendations
                        for preventing such a loss in the future. To accomplish our
                        objectives, we conducted fieldwork at OCC’s headquarters in
                        Washington, DC; its field office in Atlanta, Georgia; and FNB
                        Georgia’s former headquarters located in Bremen, Georgia. We
                        conducted our fieldwork from April 2010 through January 2011.

                        To assess the adequacy of OCC’s supervision of FNB Georgia, we
                        determined (1) when OCC first identified FNB Georgia’s safety and
                        soundness problems, (2) the gravity of the problems, and (3) the

12
     12 U.S.C. § 1831o(k).

                        Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page 14
                        Appendix 1
                        Objectives, Scope, and Methodology




                        supervisory response OCC took to get the bank to correct the
                        problems. We also assessed whether OCC (1) might have
                        discovered problems earlier; (2) identified and reported all the
                        problems; and (3) issued comprehensive, timely, and effective
                        enforcement actions that dealt with any unsafe or unsound
                        activities. Specifically, we performed the following work:

                        •   We determined that the time period relating to OCC’s
                            supervision of FNB Georgia covered by our audit would be from
                            July 23, 2004, through FNB Georgia’s failure on January 29,
                            2010. This period included six full-scope safety and soundness
                            examinations and one 60-day formal agreement follow-up
                            examination.

                        •   We reviewed OCC’s supervisory files and records for FNB
                            Georgia from 2004 through FNB Georgia’s failure on
                            January 29, 2010. We analyzed examination reports,
                            supporting workpapers, and related supervisory
                            correspondence. We performed these analyses to gain an
                            understanding of the problems identified, the approach and
                            methodology OCC used to assess the bank’s condition, and the
                            regulatory action OCC used to compel bank management to
                            address deficient conditions. We did not conduct an
                            independent or separate detailed review of the external auditor’s
                            work or associated workpapers other than those incidentally
                            available through the supervisory files.

                        •   We interviewed and discussed various aspects of FNB Georgia’s
                            supervision with OCC officials and supervisory and specialist
                            staff to obtain their perspectives on the bank’s condition and
                            the scope of the examinations.

                        •   We interviewed an FDIC official responsible for monitoring FNB
                            Georgia for federal deposit insurance purposes.


                        •   We assessed OCC’s actions based on its internal guidance and
                            requirements of the Federal Deposit Insurance Act. 13



13
     12 U.S.C. § 1811 et seq.

                        Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page 15
Appendix 1
Objectives, Scope, and Methodology




We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page 16
Appendix 2
Background




History of First National Bank of Georgia

First National Bank of Georgia (FNB Georgia), Carrollton, Georgia,
was chartered in 1948, and was wholly owned by WGNB
Corporation, a one bank holding company. FNB Georgia’s name at
the time of charter was West Georgia National Bank of Carrollton,
Georgia. In April 2004, the bank changed its name to West Georgia
National Bank. On July 1, 2007, the bank merged with the First
National Bank of Georgia, Buchanan, Georgia, and became FNB
Georgia with its main office in Carrollton, Georgia. FNB Georgia’s
main office and all branches were located in the West Atlanta area.

OCC Assessments Paid by FNB Georgia

OCC funds its operations in part through semiannual assessments
on national banks. OCC publishes annual fee schedules, which
include general assessments to be paid by each institution based
on the institution’s total assets. If the institution is a problem bank
(i.e., it has a CAMELS composite rating of 3, 4, or 5), OCC also
applies a surcharge to the institution’s assessment to cover
additional supervisory costs. These surcharges are calculated by
multiplying the sum of the general assessment by 50 percent for
3 - rated institutions or by 100 percent for 4- and 5-rated
institutions. Table 2 shows the assessments that FNB Georgia paid
to OCC from 2004 through 2009 and their share of the total
assessments paid by OCC-regulated banks.




Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page 17
Appendix 2
Background




Table 2:   Assessments Paid by FNB Georgia to OCC, 2004–2009

                                                                      Percent of Total
Billing Period               Exam Rating       Amount Paid                 Collections
1/1/2004–6/30/2004                1                 $51,037                  0.021%
7/1/2004–12/31/2004               1                  53,868                  0.022%
1/1/2005–6/30/2005                2                  56,662                  0.020%
7/1/2005–12/31/2005               2                  63,196                  0.022%
1/1/2006–6/30/2006                2                  65,920                  0.022%
7/1/2006–12/31/2006               2                  68,750                  0.022%
1/1/2007-6/30/2007                2                  73,268                  0.022%
7/1/2007–12/31/2007               2                  78,000                  0.023%
1/1/2008–6/30/2008                2                  99,426                  0.028%
7/1/2008-12/31/2008               4                 101,575                  0.028%
1/1/2009–6/30/2009                4                 203,658                  0.053%
7/1/2009-12/31/2009               5                 195,782                  0.052%
Source: OCC


Number of OCC Staff Hours Spent Examining FNB
Georgia

Table 3 shows the number of OCC staff hours spent examining
FNB Georgia from 2004 to 2009.

Table 3: Number of OCC Hours Spent on Examining FNB Georgia, 2004–2009

    Examination                    Number of
     Start Date             Examination Hours
7/23/2004                                586
6/23/2005                                584
7/6/2006                                 640
9/4/2007                                 663
4/28/2008                                700
1/5/2009                                 612
6/22/2009                              2,817
Total                                  6,602
Source: OCC Examiner View.
Note: Examination hours are totaled for safety and soundness, information
technology, compliance and follow up examinations. They do not include time
spent performing off-site monitoring.




Material Loss Review of First National Bank of Georgia (OIG-12-041)              Page 18
Appendix 3
Management Response




Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page 19
Appendix 4
Major Contributors to This Report




Lisa DeAngelis, Audit Manager
Amni Samson, Audit Manager
Fawntrella Thompson, Auditor-In-Charge
Angelo Arpaia, Auditor
Rufus Etienne, Auditor
Robert Hong, Auditor
Khuyen Tran, Auditor
Adelia Gonzales, Referencer




Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page 20
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

United States House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Government Accountability Office

    Comptroller General of the United States




Material Loss Review of First National Bank of Georgia (OIG-12-041)   Page 21
